CERTIFICATE OF SERVICE
NO. TBD
State of Oklahoma
Petitioner,
v.
Ryan Cortlan Johnson
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the STATE
by mailing three (3) true and correct
copies of the same by USPS Priority, prepaid for delivery to the following address.
OF OKLAHOMA V. JOHNSON PETITION FOR WRIT OF CERTIORARI,

Adam R. Banner
Oklahoma Legal Group
1900 NW Expressway, Suite 603
Oklahoma City, OK 73118
(405) 778-4800
adam@oklahomalegalgroup.com
Counsel for Ryan Cortlan Johnson

Lucas DeDeus

August 27, 2021
SCP Tracking: Mansinghani-Office of the Oklahoma Attorney General-Cover White

